BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amicus Curiae Freedom X In Support of Petitioners in
20-1088, David and Amy Carson, as parents and next
friends of 0. C., and Troy and Angela Nelson, as parents
and next friends of A.N. and R.N., v. A. Pender Makin,
in her official capacity as Commissioner of the Maine
Department of Education, were sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
Service to the following parties listed below, this 10th
day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati , Ohio 45249

Washington, DC 20005

Mitchell Keiter
Counsel of Record
Keiter Appellate Law
The Beverly Hills Law Building
424 South Beverly Drive
Beverly Hills, CA 90212
(310) 553.8533
mk@CaliforniaAppellateAttorney

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Becker Gallagh Legal
·ng, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

d--f:7;;;:fu.1 /O I cJ ad/

&ti- !J' 'I J ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
' ilr'1c1 ry H, ?Oi3

